<html>
<title> - [H.A.S.C. No. 112-45]ACCOUNTABILITY AT ARLINGTON NATIONAL CEMETERY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-45]
 
             ACCOUNTABILITY AT ARLINGTON NATIONAL CEMETERY

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 14, 2011

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
66-966                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    ROB WITTMAN, Virginia, Chairman
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
MO BROOKS, Alabama                   ROBERT ANDREWS, New Jersey
TODD YOUNG, Indiana                  LORETTA SANCHEZ, California
TOM ROONEY, Florida                  COLLEEN HANABUSA, Hawaii
MIKE COFFMAN, Colorado
               Michele Pearce, Professional Staff Member
                 Paul Lewis, Professional Staff Member
                      Famid Sinha, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

April 14, 2011, Accountability at Arlington National Cemetery....     1

Appendix:

April 14, 2011...................................................    33
                              ----------                              

                             APRIL 14, 2011
             ACCOUNTABILITY AT ARLINGTON NATIONAL CEMETERY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2
Wittman, Hon. Rob, a Representative from Virginia, Chairman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Condon, Kathryn A., Executive Director, Army National Cemeteries 
  Program, Office of the Secretary of the Army...................    13
Hallinan, Patrick K., Superintendent, Arlington National Cemetery    15
Koch, Col. William C., Jr., USAF (Ret.)..........................     3
Schneider, Karl F., Principal Deputy Assistant Secretary of the 
  Army for Manpower and Reserve Affairs..........................    16

                                APPENDIX

Prepared Statements:

    Condon, Kathryn A., joint with Patrick K. Hallinan...........    40
    Cooper, Hon. Jim.............................................    39
    Wittman, Hon. Rob............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Wittman..................................................    51
             ACCOUNTABILITY AT ARLINGTON NATIONAL CEMETERY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                          Washington, DC, Thursday, April 14, 2011.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Rob Wittman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM 
       VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Wittman. I call to order the Subcommittee on Oversight 
and Investigations.
    And today's hearing is on accountability at Arlington 
National Cemetery. I want to welcome everybody to this hearing 
on this issue about accountability at our national cemetery.
    Preliminarily, I would like to note for the record that the 
Secretary of the Army and the Army inspector general received 
invitations to testify at our hearing today, and I was bitterly 
disappointed to learn that they have decided not to 
participate. I hope this isn't a reflection of their 
seriousness concerning this issue.
    Instead of hearing from them, we will be receiving 
testimony from the Army National Cemetery's program executive 
director, Ms. Kathryn Condon, and the Arlington superintendent, 
Mr. Patrick Hallinan. I hope, too, today that they are ready 
for very robust and direct questions.
    These officials will address ongoing discrepancies and 
issues related to the 2010 Army inspector general's 
investigation into misconduct at Arlington. I anticipate a 
number of Members from other committees may wish to 
participate. Therefore, absent any objections, I ask for 
unanimous consent that they be allowed to participate and also 
be provided with an opportunity to ask questions.
    Before we get started with testimony, however, I would like 
to share a story with you that highlights why I am absolutely 
committed to addressing this issue. It is a story about an 
American hero who has dedicated his life to our Nation and to 
others who serve. His name is Paul Bucha.
    In 1970, Army Captain Paul Bucha received the Medal of 
Honor in Vietnam. Captain Bucha distinguished himself by 
risking his life to save the lives of his fellow wounded 
soldiers. Captain Bucha's story is a reminder of the thousands 
of other brave men and women in our Nation's military who 
served quietly and honorably, who all too often go unrecognized 
for their service and sacrifice, and who willingly gave up 
their lives in defense of freedom for all of us.
    Mr. Bucha continues his life of service and has spoken on 
the issues that have plagued Arlington. And he has stated, 
``There is no place in the United States that is as committed 
to perfection as Arlington. And, as a result, no solution to 
the issues or challenges at Arlington can be accepted that 
strives for something less than perfection.''
    The guardians of Arlington are the men and women of the old 
guard. It is their self-imposed dedication to perfection, from 
their performance of duty to their lifelong commitment to 
service, that sets them apart. They establish the standard for 
everyone who would pass among them and for those over whom they 
stand guard.
    Those who they protect and guard, those who lay beneath the 
white markers so neatly placed across that hallowed ground have 
a contract with all of us. Their sacrifice on behalf of our 
Nation was perfect in all respects, and it is our 
responsibility to similarly strive for perfection as well.
    There is no question that the Department of the Army 
recognizes the importance of resolving outstanding 
accountability. However, progress toward full restoration and 
resolution of these issues has been unsatisfactory and is in no 
way commensurate with the service and sacrifice of our fallen 
heroes.
    Our expectation is that each and every family affected by 
this scandal will have their issues addressed and, hopefully, 
their faith restored as a result of our work here today. Our 
Nation's heroes deserve better. Today, this committee is 
demanding better.
    I now turn to the ranking member, Mr. Cooper, for his 
remarks.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 37.]
    Mr. Cooper.

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
  RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Cooper. Thank you, Mr. Chairman.
    In the interest of time, I would like to insert my written 
statement in the record, but I commend you for holding this 
hearing. I am sorry that we even have to have this hearing. But 
I am dedicated to working with you to make sure that we solve 
these problems.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 39.]
    Mr. Wittman. Thank you, Mr. Cooper. I appreciate that. And, 
with that, we are going to begin our first panel of witnesses.
    And before hearing from our Army representatives, we are 
going to hear from Colonel Koch. He has taken time out of his 
busy schedule to travel here from his home in North Carolina to 
be with us and to share his experiences. I can't think of a 
better way to start the discussion about accountability than to 
start to hear from Colonel Koch. And I appreciate him taking 
the time. We had a few minutes before the hearing to meet and 
talk and to learn more about him and his commitment to our 
Nation and his family.
    And, with that, Colonel Koch, I am going to turn it over to 
you and ask for you to give us your thoughts, concerns, and 
ideas about the current state of affairs there at Arlington. I 
know you have some personal experience there that I think is 
very compelling and very useful to us as members of this 
committee.
    So, Colonel Koch.

      STATEMENT OF COL. WILLIAM C. KOCH, JR., USAF (RET.)

    Colonel Koch. Thank you.
    I was going to say, I have good news and bad news. The bad 
news is, I feel like the guy given a last cigarette and ready 
to be blindfolded. The good news is, I don't notice any of you 
having any rifles, so I think I am pretty safe. And I guess 
that is going to be the only humor I come up with. I guess that 
is very little humor, but at least I guess it is a good start.
    What I would like to talk about is another kind of hero, 
not a military hero, but the wife of these heroes and the wife 
of all of us military folks who are also buried at Arlington. 
Arlington gives us the opportunity to have our wives with us 
for eternity, and I think that is great.
    And this is my wife--excuse the shaking; when you get old, 
that is what happens--and this is her gravesite as it was 
before August. And the back of it has the location, Section 66, 
1180. And for many years--she died in 2005--I sent flowers to 
that location. Just to show you, in summer and in winter.
    And in June or July of last year, I started reading about 
some problems at Arlington, but none of them seemed to be 
associated with Section 66, so it didn't bother me. And I guess 
it should have anyway, but it didn't.
    And, later on, all of a sudden, it started spreading to 
other sections, and then I started getting concerned. And 
Arlington Cemetery gave us a number to call, and I called that 
number. And I said, ``I would like to know if my wife is 
actually buried where you say she is, based on what I have been 
reading.'' And they took my information and they said, ``We 
will call you back.''
    So about a week to 10 days later, they called me back and 
said, ``No problem. We checked all our records. Everything is 
fine.'' Well, that was good. I felt good about that because I 
had been visiting her regularly, and everything was good.
    About a week later, I got a call from an Army officer, 
saying, ``We have a problem.'' And he explained it this way--
and I have here a picture of the three gravesites that were 
affected by this. This is my wife's, this is an Army staff 
sergeant, and a Navy commander's wife.
    And what he told me was, the wife of the Army staff 
sergeant had had her husband's gravesite dug up to prove that 
he was, in fact, buried there. And when they dug it up, they 
found a wooden casket; only, he had been buried in a metal 
casket. And somehow they realized that my wife had been buried 
in a wooden casket. And so they went one gravesite over and dug 
in my wife's gravesite, and it was empty. So they went one 
gravesite the other way, and they found the urn--the woman had 
been cremated--for the wife of the Navy commander. And they dug 
deeper, and they found the staff sergeant's casket.
    My understanding is that he is now buried somewhere else at 
Arlington. My wife, they left her in the new gravesite and put 
a new headstone on her. And where she was originally supposed 
to be buried, they buried someone else.
    Now, over that almost 5 years, I sent flowers, as you could 
see, I sent wreaths at Christmas. I even took her mother up 
there so she could see her daughter's gravesite, and all she 
saw was a headstone and an empty grave.
    So I went from being elated when I was told everything was 
okay to being very, very sad. And maybe ``sad'' is the wrong 
word, but I was no longer elated.
    And so, what happened next is everything looks the same 
with the headstone; only, now on the back it has ``Section 66, 
1181'' instead of 1180, because she has moved over.
    And I put this one in there because this is the first 
flowers that I sent her and I knew she was there. No longer was 
I sending flowers to an empty grave.
    And I found a picture, I think in the newspaper, that kind 
of tells the story better than I can. It is, I think, a 
beautiful picture. But if you look, right behind this 
headstone, the front headstone, is where my wife was supposed 
to have been buried. And you will notice there is no headstone 
back there. She is now over here in her new headstone. So it 
kind of tells a story of what went on at Arlington during this 
time.
    And I guess--I have been interviewed by several news media, 
and I have told the same story. And I was asked, what do I 
expect to get out of this hearing? And I said, I guess two 
things. And I wasn't going to mention two things, I was only 
going to mention one, but I think I better mention two.
    First of all, I wanted people out there to know that there 
is a problem at Arlington. A lot of people probably read about 
it, but there may still be families out there that are going to 
visit an empty grave or a grave that is supposed to be John 
Smith and it is Mary Jones. And I think that needs to be 
corrected as best they can.
    And the other part is, the people that were in charge that 
caused all this, from my point of view and from what I have 
been able to read, have been given a slap on the wrist. And I 
don't want revenge; I want justice. And I think that is the 
only fair thing that we, the people that have been involved in 
this--and it is not just me; there are many others that have 
been through similar situations--expect from Arlington, the 
Army, and I guess from the Congress.
    With that, I will take any questions.
    Mr. Wittman. Well, thank you, Colonel Koch. We really 
appreciate you taking the time to share your story with us. It 
is very heart-wrenching to go to Arlington and believe that 
your wife was in one place but she was not. And we appreciate 
your service to our Nation.
    I want to begin by asking you how you felt after you first 
realized that through the years your wife wasn't located where 
she was supposed to be and what your feeling was there as far 
as the trust that you had in Arlington and the expectation that 
you had with the folks there at Arlington and how that cemetery 
is run.
    Colonel Koch. Well, the first thing, like I say, I was 
elated because there were no problems. And when I got the 
second call, I think I was in shock at first. And then I guess 
I was angry. And then I got over that, and I said, I think it 
is time something is done.
    The first time I went to Arlington, I was a high school 
senior. And watching or wandering, walking through all those 
gravesites, just, it was awesome. And I have been to some 
cemeteries in Europe, also, from World War II. If you have ever 
been to them, it is a similar type situation; you get the same 
feeling.
    But this is in our own country. This is our major national 
military cemetery. And it is not something we should be putting 
up with. And I guess, having been in the Air Force for 30 
years, I am not as emotional externally as some people are. And 
I don't apologize for that. I just know that, after I found out 
about this and was home, it was harder being home than it was 
before I found out.
    Mr. Wittman. Thank you. And let me ask, from your 
perspective today and what you went through in the efforts to 
resolve this problem, do you feel, number one, that you were 
dealt with fairly and that the problem was directly addressed 
and that it was solved in the best way possible?
    And secondly is, do you believe, based on your experience, 
that the folks currently at Arlington have the wherewithal to 
continue to manage that facility the way it needs to be 
managed?
    Colonel Koch. Well, for the first question, when we had the 
burial for my wife, everything went well, everything was 
perfect, except it was done after some very heavy rain, so we 
never did get to see the casket lowered into the ground, which 
probably was good, but there was--I mean, when you walked on 
the grass, it was ``slush, slush, slush,'' so we never did get 
to see it buried. And there was a little card that had her name 
on it where she was supposed to be buried. Now, whether that 
was 1180 or 1181, I don't remember.
    But we were treated well at Arlington. Everything went 
smoothly. We had an Air Force sort of honor guard of 
pallbearers. And I can't say anything bad about that whole 
situation.
    The only thing bad I can say about that process was--not 
Arlington's fault, it was the VA [Department of Veterans 
Affairs]--they wouldn't let me put--my wife was a minister--
they wouldn't let me put ``Reverend'' under her name. And on 
the new headstone, they let me put ``Reverend'' on it, but they 
put it under my name. So I want you all to know I am not a 
reverend; my wife was.
    As to what they are doing today, having read some things 
about it, I think they are probably going in the right 
direction. They have a terrific task. I don't know how they are 
ever going to go back. I think I mentioned to you earlier that 
the only way I can see to solve the problem is do DNA testing 
on everybody in Arlington, and we know that is never going to 
happen. And it is not something that is even, I don't think, 
financially possible.
    But how do you know that this person that is in this grave, 
even though it is a one-for-one, grave versus headstone, is the 
right person? I don't know how they are ever going to figure 
that one out.
    Mr. Wittman. Colonel Koch, I couldn't agree with you more. 
That is, I think, something compelling that this nation needs 
to be assured, and that is that there is 100 percent certainty 
about every grave and every set of remains there at Arlington. 
I think that is something that we owe to our men and women in 
uniform, obviously.
    From your standpoint, do you see that there are more things 
that Arlington can do to restore the trust, not only of the 
members of the military and their families that are buried 
there, but of the American public?
    Colonel Koch. Well, I think--I think it would be nice if 
there was some way they could maybe notify the families of all 
the people there that they have had problems, that people 
should check in, make sure that their loved one is there, and 
see if they can somehow work that out.
    Like I say, if the lady had not had her husband dug up, 
this isn't something I have been thinking about. And, say, 20 
years from now I died and they dug up the gravesite to put me 
in it, expecting my wife to be there, and it was empty, what 
would happen? Would they just put me in there and bury it and 
say, ``Okay, it is all done,'' or would they have gone and 
checked and found out, ``Okay, she is over here'' and then bury 
me over there? I don't have an answer to that, and maybe they 
can answer that one for you. But that is looking out a long 
time in the future--hopefully, a long time in the future.
    But, yeah, I don't know everything they are doing, so I 
can't answer for what the people at Arlington are doing 100 
percent right or 50 percent right or 25 percent right.
    Mr. Wittman. All right. Very good. Thank you, Colonel. I am 
going to turn to the ranking member now, Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. Thank you, Colonel. I 
am grateful for your service to our Nation. I am sorry that you 
have been treated this way. Nobody should have to undergo this. 
And this will probably go down as one of the biggest snafus in 
the history of the U.S. Army, to have allowed Arlington 
Cemetery, the most honored and sacred of places, to be 
mismanaged in this fashion.
    So we are working on a bipartisan basis to make sure that 
these problems are corrected as quickly as possible. I hope 
that we can get a handle on this immediately, if not sooner. 
Already, there have been years of problems and delays.
    So we just regret the experience that you faced. So if 
there is anything that we can do, we are there for you. Thank 
you, sir.
    Colonel Koch. I would say the thing you can do is keep 
after them. Don't let them stop. Keep after them. Make sure 
they are doing it, just like you are doing today. And don't let 
up.
    Now, facetiously, the other--or, earlier today, I met some 
Air Force guys, and they asked me why I was here, and I told 
them. And I also told them, I said, ``If the Air Force were in 
charge of Arlington, this wouldn't have happened.''
    Mr. Wittman. Well, Colonel, I think you have my commitment 
and Mr. Cooper's commitment and the members of the committee's 
commitment that we will not rest until we have absolute 
certainty of all the remains and identification there and the 
management of Arlington.
    So thank you so much for taking that time to come in.
    Colonel Koch. Can I say one other thing? Ask the media to 
keep it up also.
    Mr. Wittman. Amen. We will definitely do that. Mr. Conaway.
    Mr. Conaway. Colonel, thank you for coming in and sharing 
this with us today.
    I don't have any questions, other than I came in right in, 
kind of, the ``Tinkers to Evers to Chance'' of what you were 
doing. Are you comfortable your wife is buried where you 
believe she is buried? Did I understand that?
    Colonel Koch. I am sorry. I didn't hear you.
    Mr. Conaway. Are you comfortable that your wife is buried 
where you believe she is buried?
    Colonel Koch. I am probably 98 or 99 percent sure.
    And I will tell you, when they notified me, I called the 
funeral director that handled her burial and her funeral, and I 
said, you know, ``How do you identify bodies, and how does 
Arlington do it?'' And the man told me that the funeral parlor 
has to put a little tag or something in the casket that has 
name and date of birth, date of death, and all that, and that 
Arlington puts a little tag on the casket externally.
    So I called Arlington and I said, ``Did you find this 
tag''--no, I said, I was told that this happened. And the 
answer I got was, ``We are doing it now,'' which implies to me 
that they were not doing it prior to that time, which was--that 
was probably in August or September.
    Mr. Conaway. Well, there is no more delicate way to ask 
this. As part of this process, did they determine your wife's 
remains were in that casket? Did they open it up?
    Colonel Koch. They did nothing to do that. They just 
assumed--well, they never told me they did anything. But they 
assumed, because it was a wooden casket. And, apparently, there 
are not that many wooden caskets buried there. And it was in 
the general area of where she was supposed to be.
    Mr. Conaway. Okay.
    Colonel Koch. I don't have 100 percent proof. Let me put it 
that way. But I kind of feel comfortable that it is okay. But I 
couldn't say 100 percent.
    Mr. Conaway. Okay. Well, and my apologies. I am sorry that 
this happened, as well. I buried a wife also one time, and so I 
have a sense of what you went through, what you have gone 
through, and I am sorry that you were put through that.
    And I yield back.
    Mr. Wittman. Thank you, Mr. Conaway. Mr. Young.
    Mr. Young. Colonel Koch, thank you so much for your 
service. And I, of course, mean your military service but also 
your presence today. I appreciate receiving your testimony.
    And I guess I want to express to you the gratitude I have 
for some of the real human impact that these complications have 
created for you and others around the country.
    And I just would like to say, one of the things that I 
think I will be focused on, moving forward, as we try and 
rectify some of these issues, is ensuring that the concerns of 
our surviving military family members are addressed throughout 
the process, that we are involving you as we make such 
important decisions as disinterment, reinterment, and we draw 
on your wisdom and, frankly, your feelings as we try to handle 
these matters delicately.
    And there are some organizations out there that I have 
become aware of that have provided some thoughts on how we 
might involve you in the process, moving forward. The Tragedy 
Assistance Program for Survivors has a number of good 
suggestions, I think. And perhaps we can talk about 
implementing some of those.
    But, really, I just want to say, thank you, sir. You are 
doing great credit to the military services and to our 
citizenry by your presence and testimony here today. God bless 
you.
    Colonel Koch. Excuse me. Could I say one thing?
    Mr. Wittman. Yes, Colonel, please.
    Colonel Koch. I have to remember. That is the trouble when 
you get old; you forget things faster than you should. Let me 
think about it, and I will----
    Mr. Wittman. Okay.
    Colonel Koch. I will think about it.
    Mr. Wittman. All right. We will come back to you, I 
guarantee, guarantee. Mr. Rooney.
    Mr. Rooney. Sir, when you say the people that were 
responsible for the errors--and I am sorry, I came in late. If 
I could ask a question before I ask a backup question.
    When your wife's--when you were at the site and you said 
that it was raining and you didn't actually see the casket go 
in the ground, how did it go from there to not going into the 
ground there? If you could back up and--and I apologize for 
coming in late, and I didn't hear if you said that in your 
opening testimony. What is your understanding of how there was 
a mixup?
    Colonel Koch. I don't have an answer for that. I don't know 
how it got mixed up, other than the fact--well, you see, it 
wasn't just my wife's that was mixed up; it was also the staff 
sergeant, it was also the Navy commander's gravesite. So, 
really, there were three gravesites in that one area.
    Mr. Rooney. Uh-huh.
    Colonel Koch. So, apparently, some of the worker bees must 
have either not followed the procedures or did something they 
shouldn't have or didn't have some supervisor or something 
there to make sure that they did it right.
    But how they got it wrong I don't know. Because, like I 
say, there was a little card there with her name on it. And the 
thing I didn't know was whether it was the correct gravesite or 
not, because we couldn't even bring the casket up to that 
location, it was so wet.
    Mr. Rooney. Uh-huh. And, sir, you say in your testimony 
that those that were responsible for this received a slap on 
the wrist. Do you know what that entailed, what was the slap on 
the wrist?
    Colonel Koch. My understanding is that they were given 
letters of reprimand, that in the last paragraph, I believe, of 
the letter of reprimand it said, ``This will be taken out of 
your records when you retire.'' So, in other words, once they 
retired, it was as if this whole situation never occurred.
    Mr. Rooney. Thank you, sir. Mr. Chairman, I don't have 
any--I yield back.
    Mr. Wittman. All right. Thank you, Mr. Rooney. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. And, Colonel Koch, 
thank you so much for your service to our country and for your 
willingness to come before this committee. And, again, my 
apologies for what has occurred to you and your family.
    Help me out here. I understand it was inclement weather, 
and so, because of that, you didn't see your wife's casket go 
into the ground. Is it normal procedure in Arlington that in 
weather conditions where there is not inclement weather that 
one would observe--that the family would observe the casket 
going into the gravesite?
    Colonel Koch. I really can't answer that. I think you 
should ask----
    Mr. Coffman. Okay. Very well. That will be a question, 
certainly, that we raise to the staff at Arlington.
    What was the attitude of, in your communications with the 
staff at Arlington, the graves registration staff or whatever 
they--if there is a civilian term for it, I am not familiar 
with it. What did--tell me about the course or the conduct of 
those communications. I mean, were they bureaucratic? Were they 
sympathetic? How would you describe them?
    Colonel Koch. Certainly, they were sympathetic. When I 
spoke with the funeral director, he said, ``Well, it is 
probably going to be several weeks before we will be able to do 
the burial.'' And the night that we had the viewing in Raleigh, 
he came to me and said, ``It is going to be on the 6th of 
January,'' and she had died on the 20th of December. So it was 
probably as quick as I would have even thought of.
    The man that dealt with us the day of the actual burial was 
as nice as could be. And, like I say, the only complaint I had 
at that point was not with Arlington, it was with the VA and my 
concerns about the headstone.
    And then the burial, itself, as far as it went----
    Mr. Coffman. When you were first notified, the 
communications at the point in time where you realized that 
there was a problem----
    Colonel Koch. Oh.
    Mr. Coffman [continuing]. And you had contacted the staff 
at Arlington, tell me about those communications and how they 
went.
    Colonel Koch. I went back too far, I think.
    Mr. Coffman. No, that is fine. That is fine.
    Colonel Koch. It was an Army lieutenant colonel. He called 
me up, he left me a message and said something like, ``We've 
got a problem''--no, he said, ``Please call this number,'' and 
he gave me the number.
    Mr. Coffman. Okay. Good.
    Colonel Koch. He didn't say there was----
    Mr. Coffman. That is good.
    Colonel Koch. When I called him, he then told me there was 
a problem. He explained it to me exactly.
    And now I remember what I was going to mention to Mr. 
Young. They dug up my wife's grave, and someone said, ``I 
thought that was illegal, to dig up a grave without 
permission.'' And I don't know if that is true or not; they 
would have to ask the legal people. But that was one of the 
concerns more people had than I did.
    But anyway, everybody that I dealt with in the building 
where they bring the families, everything there was fine, had 
no problems. They escorted us to our cars, took us out to the 
gravesite, waited for us, went back, showed us how the cars 
should be set up. So I have no complaints about that part of 
it.
    Mr. Coffman. Okay.
    Colonel Koch. The lieutenant colonel was very nice. He 
explained it. He did not try to make excuses. He said, here's 
the facts. And I think that is what I like about the military: 
They don't try to make excuses; they tell you the facts. If you 
don't like the facts, tough luck.
    But, yeah, he was--everything, from that point of view, I 
thought was okay, other than the fact that I didn't like what 
he was telling me.
    Mr. Coffman. Sure.
    Colonel Koch. Not how he was telling me, but what he was 
telling me.
    Mr. Coffman. Okay.
    Mr. Young. Would the gentleman yield just for a moment?
    Mr. Coffman. Yes, I yield.
    Mr. Young. Sir, you indicated, just to make sure we have 
this correct here, that your wife's remains were dug up without 
any consultation with you. Is that correct?
    Colonel Koch. Not exactly. What it was was they dug up the 
gravesite where she actually was, which was the staff 
sergeant's gravesite. So they had permission from the wife of 
the staff sergeant to dig that up. But then they went into 
where my wife's gravesite was and dug that one up, not knowing 
whether she was there or not until they actually dug and found 
that she wasn't.
    Mr. Young. Thank you. I thought I missed something there. I 
appreciate that. Troubling nonetheless. Thank you.
    Mr. Coffman. Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Mr. Coffman. Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman. And thanks for 
inviting me today.
    I know some of the other Members may wonder why I am 
sitting down here, but I am a member of HASC, but I am also 
chairman of the Veterans Committee, Disability Assistance and 
Memorials. And oversight of our veterans cemeteries and 
Arlington is one of my primary issues that I deal with.
    And, Colonel Koch, thank you for your service, and thanks 
for sharing your story with us.
    You know, it was literally my second week in--or my second 
month in office that I had a similar constituent complaint much 
like you had. And I have since been over to Arlington, and it 
was fixed rapidly.
    I think many people on this committee will be comforted in 
knowing I think we are moving in the right direction. And I 
look forward to their testimony.
    And the situation I would like to share with the 
constituent I had. I had a gentleman reach out to my office the 
1st of March, that his nephew came down to visit his 
grandfather's gravesite, and there was a different headstone in 
the gravesite. And it was shocking to them. I reached out to 
Arlington. They fixed the problem--identified the problem, and 
it was, obviously, a human error issue that had happened when 
someone had, you know, buried their spouse along with them, and 
it got put in the wrong part of the graveyard. But it was 
fixed.
    So, you know, I look forward--I appreciate the opportunity 
to be here, but I look forward to tackling this, also, on the 
VA side with several more hearings to make sure we are moving 
in the right direction. Because stories like yours, 
unfortunately, you know, they are not one of a kind. They 
happen all the time. And that is really why we are having this 
hearing.
    Thank you again for sharing your story with us today. I 
yield back.
    Colonel Koch. Can I say something?
    Mr. Wittman. Yes, please.
    Colonel Koch. The VA cemeteries appear to be run pretty 
well, from what I understand. And maybe they are smaller, maybe 
they are not in such a situation that maybe it is easier to 
handle.
    But I was going to say, in the military--I was a navigator 
in Vietnam, and we always had checklists. And you would have 
the checklist, and you would check things off. Now, I don't 
know if Arlington has a checklist. I hope they do. And it says: 
Call this person--check, we did it, and initial it, here is who 
did it; call this person; dig a hole--I mean, a gravesite--
sorry about that. But, you know, do each step of the process 
and have somebody sign off on it.
    At the end, the last guy signs off and says, ``These are 
all done.'' Now you know this person is buried at this section, 
this gravesite, everybody has done their part, we don't have to 
worry about that one, we can check that one off, let's go on to 
the next one.
    Mr. Runyan. Mr. Chairman, will you yield for one second?
    Mr. Wittman. Please, yes.
    Mr. Runyan. Just to let you know, Colonel, that we stole 
the superintendent to Arlington from the VA, so, yeah.
    Colonel Koch. That is right.
    Mr. Runyan. I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Runyan. We appreciate your 
interest in this, appreciate you joining us today. And we look 
forward to making sure that these issues there at Arlington 
are, indeed, resolved.
    And, Colonel, thank you so much for taking your time today.
    And I do want to offer to the committee members, if anybody 
has any additional questions, now would be the time to pose 
them. If not, then what we will do is move into recess. But I 
want to open the floor again if anybody has any additional 
questions.
    Mr. Coffman. Mr. Chairman, if I could?
    Mr. Wittman. Yes.
    Mr. Coffman. Thank you, Mr. Chairman. Colonel Koch, when 
you were told that the identification card, that it was the 
normal procedure to place the identification card in the casket 
itself----
    Colonel Koch. Yes.
    Mr. Coffman [continuing]. What was their response again? 
That they just started doing that? Or was it at some point in 
time after your wife had been interred that they started doing 
that? What was the response again?
    Colonel Koch. Well, the card from the funeral director was 
apparently--I think the funeral director told me, by law, they 
have to put that inside the casket. The one outside, it sounded 
as if they had--either they had done it for a while and then 
they stopped, or they had never done it even though people 
thought they were doing it.
    Mr. Coffman. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. Coffman. Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    I am not going to be able to make it back for the next 
panel, so I just wanted to say, you know--and, Colonel, again, 
thank you for your testimony.
    I think that the thing that gets me, personally, so upset 
about your situation and the situation that Mr. Runyan was 
talking about is, you know, if you go to Arlington and you go 
to the changing of the guard and the Tomb of the Unknown 
Soldier and the reverence that we have for soldiers or 
servicemen that we don't know quite--we are not quite sure who 
they are, but we have that much respect. Or, you know, you see 
the President last year going up to Dover Air Force Base, and 
the somber mood of those soldiers coming home.
    And, yet, we make what could very well just be an honest 
human error. It is just unacceptable, in my mind. And, you 
know, the fact that this country reveres so much the people 
that died for this country, that we would have the kind of 
honor and pomp and circumstance of the changing of the guard, 
but, at the same time, we are making these kind of mistakes in 
the same exact place, in the same exact venue, is just 
unconscionable.
    And I am sorry--I am sorry that you had to go through this, 
you know, on behalf of myself and, I am sure, the rest of this 
body. And I am sorry I am not going to be able to be here for 
the next block. But I hope everything, moving forward, will be 
squared away.
    Colonel Koch. Yeah, I think we have more than one unknown 
soldier in Arlington now. There may be multiples spread out 
over the whole cemetery, unfortunately.
    Mr. Rooney. Yeah. Thank you.
    Mr. Wittman. All right. Thank you, Colonel Koch. Any other 
questions for the colonel?
    Mr. Coffman. Mr. Chairman, just very quickly.
    Mr. Wittman. Yes, Mr. Coffman.
    Mr. Coffman. I am sorry. When was your wife buried again, 
interred?
    Colonel Koch. She died on December 20th, and she was buried 
on the 6th of January last--let's see. She died in 2005 on the 
20th of December, and she was buried January 6th in 2006.
    Mr. Coffman. In the associated graves of the--I think you 
talked about a staff sergeant, and was it a--I think a 
lieutenant commander or commander's wife?
    Colonel Koch. Commander.
    Mr. Coffman. Commander's wife. Do you remember at all when 
they were interred?
    Colonel Koch. No, I don't.
    Mr. Coffman. Okay. Thank you.
    Mr. Wittman. Thank you, Mr. Coffman. Colonel Koch, thank 
you again. We really appreciate you spending your time with us. 
We know this is a very difficult situation for you, to come in 
here and share your experience, but it is extraordinarily 
helpful to us to have an experience, a face, a name, a person 
associated with the issues we are dealing with there at 
Arlington.
    So I deeply, deeply appreciate that. Thank you for taking 
your time coming here from North Carolina and sharing what I 
know is a very personal situation with us.
    Colonel Koch. Well, thank you for inviting me.
    And I don't know if anybody saw, but there was a picture up 
there of my wife and I. And that was the last picture ever 
taken of her. There it is. And she was a very beautiful lady, 
and I still miss her. But I have gotten over some of it. You 
never get over it all, but you get over a little bit of it. And 
I wish she were still here and I didn't have to sit here and 
talk about her. Thank you all for inviting me.
    Mr. Wittman. Well, Colonel, thank you. And we will continue 
to keep you and your wife in our thoughts and prayers. We 
appreciate you sharing with us today.
    And, with that, I am going to recess the Oversight and 
Investigations Subcommittee while we go to the floor and vote. 
And we will reconvene 5 minutes after the vote on the floor.
    [Recess.]
    Mr. Wittman. I call the Subcommittee on Oversight and 
Investigations back to order.
    And we will begin with our next panel of witnesses: Ms. 
Condon, Mr. Hallinan, and Mr. Schneider. We welcome you to the 
committee and look forward to your opening statements. So, Ms. 
Condon, we will begin with you.

   STATEMENT OF KATHRYN A. CONDON, EXECUTIVE DIRECTOR, ARMY 
  NATIONAL CEMETERIES PROGRAM, OFFICE OF THE SECRETARY OF THE 
                              ARMY

    Ms. Condon. Mr. Chairman and distinguished members of the 
subcommittee, thank you for the opportunity to provide an 
update on Arlington today.
    I am joined today by Mr. Patrick Hallinan, who is the 
superintendent of Arlington, and Mr. Karl Schneider, who is the 
Principal Deputy Assistant Secretary of the Army for Manpower 
and Reserve Affairs.
    As the executive director responsible for both the U.S. 
Soldier and Airmen's Home National Cemetery and Arlington 
National Cemetery, I want you to know that the Army is 
committed to rendering public honor and recognition through 
dignified burial services for members of our armed services and 
their loved ones.
    On behalf of the cemeteries and the Department of the Army, 
I would like to thank Congress for the support they have 
provided over the years. But, in particular, sir, I would like 
to thank you and the Members for the support that you have 
provided Mr. Hallinan and I in our first 10 months on the job.
    As executive director, I report directly to the Secretary 
of the Army. And it is my responsibility now to effectively and 
efficiently develop, operate, manage, and administer both of 
the cemeteries. Mr. Hallinan, as the superintendent, is 
responsible for the daily operations.
    I know that the past serious mismanagement of Arlington 
National Cemetery has caused great consternation to the 
American public, to Congress, but most importantly, to our 
veterans and their loved ones. The news reports, combined with 
the inspector general [IG] reports, have shattered the trust in 
Arlington.
    I am here today to personally tell you that Arlington 
Cemetery has the full support of the Army and we are moving 
forward to fix the problems found by the inspector general. And 
we will comply with the legislative requirements that will 
continue to correct the mistakes of the past while ensuring 
future strong management, oversight, and, most importantly, 
accountability.
    In less than a year, we have taken several steps to address 
the past issues, including rebuilding the workforce, 
overhauling the automated interment scheduling system, 
establishing a consolidated call center, implementing a 
financial management system and a procurement system, and 
employing a new chain of custody for procedures that weren't 
there before.
    Arlington National Cemetery, as you know, conducts 27 
funerals a day. We consider it part of our sacred trust to 
ensure that each funeral is executed with utmost dignity and 
respect. Every funeral receives Mr. Hallinan and my full 
attention to detail.
    Daily operations are critical to maintaining one of the 
unique traditions of Arlington National Cemetery: multiple, 
simultaneous, private gravesite interments with full military 
honors. Neither the importance nor the complexity of this 
tradition can be overstated.
    To establish accountability while maintaining this 
tradition, standards were developed throughout the operation 
which didn't exist before. In addition, we have procured new 
equipment, we are training the workforce to implement the 
standards that have we put in place, and we are now holding our 
supervisors and leaders accountable for the operations.
    Arlington National Cemetery is truly about those who have 
served. It provides a means for families, friends, and the 
country to honor our fallen veterans. Hence, customer service 
is a critical priority, because our goal is to help each and 
every family come to closure.
    While we are making progress to date to improve service to 
our veterans and their loved ones, improvements still must 
continue. We firmly believe in continuous process improvement, 
and we are working every day to establish and improve feedback 
mechanisms to increase our understanding of family needs and 
concerns.
    One of the biggest concerns upon arrival were the paper 
records and the lack of any backup of this information. We have 
been able to recover images from the efforts in 2005 to scan 
the records that were beginning in the Civil War. These images 
have been integrated with VA's BOSS [Burial Operation Support 
System] records and our interment schedule records into a 
searchable database that now provides both a digital tool and, 
more importantly, a backup for the vast majority of those 
authoritative records. This database will be expanded and is 
forming the basis for the accounting effort that has been 
mandated by public law.
    We hope that we can highlight today the actions that we 
have taken to change, and demonstrate the progress that has 
been and continues to be made to restore the Nation's 
confidence in Arlington National Cemetery.
    Mr. Chairman, this concludes my testimony.
    [The joint prepared statement of Ms. Condon and Mr. 
Hallinan can be found in the Appendix on page 40.]
    Mr. Wittman. Thank you, Ms. Condon. I will offer an 
opportunity to Mr. Hallinan or Mr. Schneider, if they have any 
opening comments they would like to make. I will take them at 
this time.

  STATEMENT OF PATRICK K. HALLINAN, SUPERINTENDENT, ARLINGTON 
                       NATIONAL CEMETERY

    Mr. Hallinan. Mr. Chairman, distinguished members of the 
subcommittee, I thank you for the opportunity to speak to you 
about Arlington National Cemetery.
    I was appointed to superintendent of Arlington National 
Cemetery on October 10, 2010, and I have served as the acting 
superintendent of Arlington National Cemetery since June 6, 
2010. This is my first opportunity to speak before Congress.
    Ms. Condon and I started at Arlington National Cemetery on 
the same day. I came over as a subject-matter expert on the 
detail, at the request of the Secretary of the Army and at the 
direction of the Secretary of the VA, to provide assistance 
with cemetery operations.
    I was formerly the director of field programs for the 
National Cemetery Administration, Department of Veterans 
Affairs [VA]. And, in that capacity, I was responsible for 
policies, procedures, their implementation and development on 
cemetery operations and to provide guidance to all national 
cemeteries. I also had oversight responsibility for 131 
national cemeteries, five memorial service networks, and helped 
establish the National Training Academy for the National 
Cemetery Administration. I bring my commitment and that 
expertise to Arlington National Cemetery.
    I began my career, Mr. Chairman, in Federal service as a 
Marine. Upon my honorable discharge from the Marine Corps, I 
took a position with the National Cemetery Administration as a 
temporary caretaker. My entire life has been devoted to 
cemetery operations. As I look back on my 37-year career, I 
view my appointment as superintendent of Arlington to be the 
high point.
    I am committed to being part of a team that fixes the many 
problems that we are all aware of and some we may also 
discover.
    As Ms. Condon mentioned in her testimony, in less than 1 
year--10 months--we have taken several steps to address the 
problems. We have introduced industry standards, national 
standards that the VA has used at their national cemeteries and 
other national cemeteries and private industry use. We sent our 
employees out for professional training. We are training our 
employees onsite. We have purchased new equipment. We are 
providing the leadership and direction that they need.
    I am personally out on a daily basis, no matter the weather 
conditions, snow or rain, directing, leading, guiding, 
coaching, mentoring, holding the supervisors, the team leaders, 
and the entire workforce accountable. I will say that the 
workforce has responded in a positive manner, and I have seen 
improvement, while I freely admit there is much improvement to 
be made.
    Arlington National Cemetery is hallowed ground. It is the 
place where America's heroes lie in rest. As a veteran, as the 
father of a Marine, and, most importantly, as a person who has 
dedicated his entire life to service to our military families, 
I am honored to be the superintendent, and I am committed to 
fix the mistakes of the past and restore the public faith and 
trust in the operations of Arlington National Cemetery.
    I thank you for allowing me to be here today.
    [The joint prepared statement of Mr. Hallinan and Ms. 
Condon can be found in the Appendix on page 40.]
    Mr. Wittman. Mr. Schneider.

  STATEMENT OF KARL F. SCHNEIDER, PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY OF THE ARMY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Schneider. Mr. Chairman, I don't have a statement. I am 
here, though, as the Army's senior career civilian 
personnelist. I have over 30 years of service with experience 
with both military and civilian personnel. And the Secretary of 
the Army has asked me to appear today to answer your questions 
about the personnel actions related to Arlington National 
Cemetery.
    I am happy to take your questions, sir.
    Mr. Wittman. All right. Very good. Well, thank you, members 
of the panel. We appreciate your opening statements.
    And, at this point, we will begin a line of questioning. 
And I want to begin with you, Ms. Condon, and I will move over 
to Mr. Hallinan.
    Full faith and trust in Arlington National Cemetery is, I 
think, critical not just to the men and women that are interred 
there, but to this Nation. It is a symbol of what is right and 
what is just in how we honor the fallen.
    My question is this: We have heard from the Secretary, when 
he testified before the full committee, and his words were he 
pledged to do everything necessary and possible to right the 
unimaginable and unacceptable wrongs that have taken place. 
That means 100 percent accountability, 100 percent auditing, to 
make sure that everything at Arlington, both past and present, 
is beyond reproach.
    It seems to me that now we learn that the Army doesn't plan 
on following up with that promise, that there is not going to 
be 100 percent certainty in identification of remains, we won't 
use every means possible to make sure that we take up the 
concerns of families that may not know with certainty the 
placement of their loved ones there.
    Also, it is clear to me today by both the Secretary and the 
Army inspector general not being here for this hearing that 
they don't take this very seriously.
    And I am wondering, from your standpoint, I will first ask, 
is the Army really serious about 100 percent accountability and 
making sure that we do everything to assure that there is not a 
single set of remains there that is misidentified, misplaced, 
and that families have full closure on that?
    And is it difficult for you to work under a circumstance 
where you come here--obviously, you are committed--but it 
doesn't seem like the Secretary or the IG are taking this 
seriously? It must be kind of frustrating for you not to have 
the people above you taking this issue at Arlington seriously.
    And I will look for your comments.
    Ms. Condon. Sir, I can tell you personally that the entire 
Army, to include the Secretary and the inspector general, do 
take the issues at----
    Mr. Wittman. Ms. Condon, I hate to say this, but words fail 
in this situation. It is obvious that they have something 
better to do today than to make sure that Arlington is beyond 
reproach with how we treat the men and women who have served 
this Nation.
    What else on their schedule can be more important than 
that? It is obvious that they don't get it. And I know it is 
frustrating for you to work under those conditions. And words 
fail. Actions speak louder than words.
    Ms. Condon. And, sir, actions do speak louder than words, 
and you have the commitment of Mr. Hallinan and myself that we 
truly are putting together the steps that need to be taken to 
do the accountability at Arlington.
    I would like to use the analogy that, when we started in 
June, we were almost--we moved into a house that didn't have a 
foundation. There wasn't an IT infrastructure. There wasn't the 
accountability. There wasn't the standards and procedures. So 
what we have had to do was to build that first. And now we are 
working on the plan to truly move to do the accountability.
    Mr. Wittman. Will we be assured that not only going forward 
that we have the accountability, but that accountability will 
be held in context of what has happened in the past?
    I think that is critical for families to have closure and 
to make sure, too, that the wrongs of the past are righted in 
relation to making sure we assure families with 100 percent 
certainty about the identification and the location of their 
loved ones.
    Ms. Condon. And, sir, we will work for the accountability 
from June 10th forward, when Mr. Hallinan and I started, and we 
will work on every gravesite in Arlington.
    Mr. Wittman. Very good. Mr. Hallinan.
    Mr. Hallinan. In support of what Ms. Condon has stated, you 
have our commitment, sir, this subcommittee, the families, and 
the American public, that we will correct the problems of the 
past and ensure that, from an operational standpoint and a 
maintenance standpoint, that Arlington is run to the highest 
standards.
    And, also, we also have a focus on customer service--the 
need to be compassionate, the need to be sympathetic, the need 
to be understanding--realizing that there are real operational, 
systemic issues that need to be repaired and fixed, but, at the 
same time, do not lose a sense of the families you are dealing 
with and the grief and the trauma they may be going through.
    Mr. Wittman. Thank you. Mr. Schneider, could you comment 
about the accountability element? Obviously, there have been 
wrongs in the past. Can you update us on where the Army is? 
Obviously, the inspector general is doing something--hopefully 
is doing something. Maybe he is not; maybe that is why he is 
not here today.
    But maybe you can give us an update on what is going on 
with making sure that folks are held accountable for actions of 
the past.
    Mr. Schneider. And the frustrating thing about that--and I 
am sure it is frustrating for the committee; I know it is 
frustrating for us--is the superintendent and the deputy 
superintendent, as soon as the report--right after the report 
was delivered to the Secretary, retired. And our jurisdiction 
to take any adverse action against them evaporated the day that 
they retired.
    Mr. Wittman. Well, I understand that their retirement was 
not necessarily a voluntary retirement. But, anyway, that being 
said, it is perplexing, I think, to both the committee, 
subcommittee, and the public that a letter of reprimand was in 
the file, to be removed 6 months later, and that is the extent 
of how folks there in the past have been held accountable.
    And I would want to know from you, where is the progress 
with the inspector general? We hear that there is an ongoing 
investigation. Can we expect that to come to a conclusion? Can 
we expect actions from that investigation?
    Mr. Schneider. Again, I think what you can expect--yes, I 
think that will be brought to a conclusion, although I 
haven't--I don't track the inspector general investigation.
    What I can tell you is, the Secretary has told all of us 
that he expects accountability to be one of our top priorities. 
And to the extent that the inspector general report identifies 
either poor performance or misconduct, the Secretary will 
expect us to ensure that accountability is held.
    The frustrating thing, again, is, the way in which the 
civil service laws work, the tools that we have available to 
us, especially when people are retirement-eligible, once they 
retire, we have no control. We have no control over when they 
retire; they can retire at any time. And, once they are 
retired, we lose the opportunity to do anything more to hold 
them accountable.
    For example, with the letter of reprimand to the 
superintendent, that was as much as the Secretary could get 
done before he retired.
    Mr. Wittman. Mr. Schneider, isn't it correct, though, that 
that is limited to administrative procedures on folks that 
retire? If there is criminal behavior there, they fall under 
the criminal statute. So that doesn't exempt them, if they are 
Senior Executive Service, from being prosecuted if they are 
found to be criminally----
    Mr. Schneider. Absolutely.
    Mr. Wittman [continuing]. A criminal wrongdoing.
    Mr. Schneider. And what the Criminal Investigation Command 
does is they coordinate with the U.S. Attorney who has 
jurisdiction. And it is up to the U.S. Attorney, obviously, to 
decide--if it is a civilian.
    Now, if it is military, it is under the Uniform Code of 
Military Justice, and the chain of command can deal with it 
appropriately. But for civilians, it would rest with the U.S. 
Attorney and, in the case of Arlington, probably for the 
Eastern District of Virginia.
    Mr. Wittman. Is the inspector general pursuing all courses 
of actions concerning past actions there by personnel, both 
civil and criminal? Of course, on the civil side, obviously, 
that would be the administrative element that you speak of, but 
even on the criminal side?
    Mr. Schneider. If they discover criminal activity, they 
turn it over to the Army's Criminal Investigation Command----
    Mr. Wittman. I guess the question is, are they looking at 
the potential for criminal activity there?
    Mr. Schneider. Sir, I think whenever they find criminal 
activity, they turn it over to the CID.
    And I think they are committed--I guess what would be best 
to do is to get for the record exactly what the Department of 
the Army inspector general is doing in this area, so you can 
see exactly where they are at.
    Mr. Wittman. I think that would be nice, Mr. Schneider. We 
will certainly submit some questions in writing. Although, it 
would have been nice for the inspector general to be here 
today, as I have said. Obviously, he doesn't feel this is very 
serious, so we will certainly pose some formal questions to him 
and gauge his seriousness with this effort.
    Mr. Schneider. Yes, sir.
    Mr. Wittman. I am going to pursue one other line of 
questioning, and then I am going to turn it over to the other 
members of the committee.
    Normally, if you look at situations throughout other parts 
of the military, there is a certain standard and procedure that 
folks go through. And I know that you all had spoken of the 
heavy workload that is there and the things that you have to 
deal with each and every day--the number of burials, the 
maintenance, those kinds of things.
    But it seems to be standard practice in other branches of 
the military that, when you have something of this magnitude 
that happens--in this instance, I think, a tragedy, and whether 
it is a plane going down in another branch of the military, 
whatever--normally, those branches have a stand-down. They say, 
``Okay, we are going to stand things down. We are going to 
really get down to what caused this problem.''
    It doesn't seem like, in this situation, that there has 
been a stand-down, that there has been the direction or the 
redirection to say, ``Not only are we going to make sure that 
things are happening properly going forward, but we are going 
to make sure that those problems that have happened in the past 
are taken care of.'' And if you look at stand-down procedures 
throughout the military, that is normally the course of 
procedure.
    I would like your comments on why, in this situation, there 
doesn't seem to have been a stand-down that not only addresses 
things going forward--and, like I said, I want to give you all 
credit for the things that are going on going forward, although 
I still think there are things that need to happen there. But 
what has happened with problems that have occurred in the past 
and how we resolve those particular issues?
    Ms. Condon. Sir, if I could, I am very familiar with stand-
down procedures in the military, and I would like to think that 
Mr. Hallinan and I really did that. In order for us to do all 
the changes that we are making going forward, we had to correct 
those issues in the past. And that is what we have been doing.
    Mr. Wittman. Very good. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. I want to thank our 
panel for being here today.
    Mr. Hallinan, I am a Marine, too, and I know you understand 
the ethic ``Semper Fidelis.''
    For those who are watching this hearing today, the origin 
of ``Semper Fidelis,'' the Marine Corps motto, it speaks to the 
seriousness with which the Marine Corps regard loyalty to their 
fellow Marines. It extends not just to the living; ``always 
faithful'' even extends to those who happen to pass away, those 
on the battlefield. And it is the Marine Corps tradition, even 
under the most difficult of circumstances, to retrieve those 
who have departed in service to our country from the 
battlefield, even if that requires great danger to our fellow 
soldiers. I think that speaks to the sort of commitment all of 
us have as a country to those who have departed and all of 
their families.
    In this case, we know we have unmarked and mismarked 
graves, we had the existence of a mass grave, so many other 
things, that it sort of boggles the mind here. And we are 
working here constructively, I hope, to address these problems.
    I am quite disappointed, as a member of this subcommittee, 
that invitations went out to the Secretary of the Army, the 
Army inspector general. And I want to say it puts all of you in 
a very difficult position. Because one of the first things a 
young lieutenant learns in the military is you can delegate 
responsibility but not accountability. So any inadequacies we 
might discover here today don't just reside with you; 
ultimately, accountability, we understand, is a bit higher in 
the food chain. And, hopefully, we can speak to the IG and the 
Secretary in due course.
    We can honor the memory by dealing with the grief and 
trauma, as Mr. Hallinan put it, of family members. And what I 
want to most learn about from you is whether you individuals--
Mr. Hallinan, Ms. Condon, Mr. Schneider--have reached out to 
each and every family that has been impacted by this scandal, 
and, if so, how that has taken place, and any other details 
that you think might be useful to this panel.
    Ms. Condon. Sir, if I could start. Each and every time that 
we have discovered a discrepancy in Arlington, the first people 
that we do contact are the next of kin.
    Mr. Hallinan. When we do discover a discrepancy, if there 
is an issue with a gravesite, we are required to contact the 
next of kin. We cannot arbitrarily just go into a person's 
gravesite. So we are trying to be--we are being transparent. We 
are contacting the families.
    Mr. Young. And does that involve sending a letter? Through 
what means do you contact the family members?
    Ms. Condon. Sir, we try to contact them via phone so that 
we talk to them, rather than a letter. And if we cannot reach 
them by telephone, we follow up with a letter.
    Mr. Young. And, presumably, we have a log, records of all 
the contacts that have been made and the results of said 
contact?
    Ms. Condon. Sir, for all the discrepancies, you know, most 
of them have been via telephone and we have been very fortunate 
to be able to contact the next of kin.
    Mr. Young. Is there a further plan of engagement of family 
members moving forward? And, if so, what is that plan?
    Ms. Condon. Sir, one of the things that Mr. Hallinan and I 
have done is we have had a town hall with Gold Star families. 
And what it was, it was our opportunity to have those family 
members who have lost a loved one talk to us about what they 
would expect the new leadership team at Arlington to discuss 
with them and any other family member that is in a situation 
that we have encountered to date.
    Mr. Young. As someone who holds many town hall meetings, I 
know those are useful, but their reach can sometimes be 
limited. So what sort of participation do you have in these 
town hall meetings? And what proportion of the overall family 
universe that has been impacted by this tragedy does it touch, 
your town hall?
    Ms. Condon. Sir, that town hall meeting was put on by TAPS, 
and that was the organization that I think did send a letter to 
you, Congressman. And they were the ones who orchestrated our 
first town hall.
    The means that we are trying to do to reach our families is 
via our Web site. That is one of the means of communication 
that we are using for any issue that we have at the cemetery. 
And we are constantly trying to improve that medium, as well.
    Mr. Young. Now, I know Web sites, many of us check them 
regularly, especially when they have valuable content. But I 
know many people do not and they are not comfortable with 
computers, perhaps don't even own them.
    So are you doing other things in addition to updating a Web 
site to keep the family members engaged and fully informed of 
progress? Is there a help line? Is there an intermediary 
between government, which sometimes can be a sterile 
organization, and the impacted families?
    Ms. Condon. Yes, sir. As a matter of fact, on the first day 
on the job when the inspector general hit, we immediately set 
up a call center hotline. And it was a telephone--where members 
who read this in the media could call us. We now have a 
consolidated call center, which is a toll-free number, for 
anyone who can call in to the cemetery.
    That didn't exist before. Prior to Mr. Hallinan and I and 
the call center, we really couldn't tell you how many people 
were trying to contact the cemetery, whether for something as 
simple as directions, to get a parking pass, or if they truly 
had an issue or if they were going to schedule a service for 
their loved one.
    Right now, we receive over 200 phone calls a day into the 
cemetery, which 45 of those are for families who are trying to 
schedule services to have their individuals buried. So that is 
the means that we are--the call number, the call center, we 
answer every call now that comes into the cemetery.
    Mr. Young. Can you speak to any specific programs or things 
that you have implemented to ensure continuous improvement of 
engagement and information being passed down to the families? 
For example, surveying them, asking them what sorts of 
improvements you might make to better inform them of future 
developments.
    Ms. Condon. Yes, sir, we are working on that. As I said, we 
are trying to build a foundation. What we really had to do was 
to even build the IT architecture in the cemetery to even have 
the means to put out a survey electronically. But that is one 
of the future plans that we are having.
    Then we are also putting out a new burial guide that truly 
is a guide that will really answer a lot of the questions that 
individuals have that, before, they just didn't have a place to 
go, which will outline all of the places of how you can contact 
anyone in the cemetery.
    Mr. Young. And, finally, I am curious about a related 
matter. I know many family members care deeply about the 
mementos that are left at these gravesites, particularly 
military gravesites. There is a real history of that.
    Does Arlington National Cemetery now operate some sort of 
system for protecting these mementos, properly cataloging them, 
and then allowing family members to access this information in 
a reliable way?
    Ms. Condon. Sir, the mementos are collected in Section 60, 
which is where most of the current casualties from the wars 
are. And we have our Center for Military History is collecting 
those mementos and cataloging them.
    And that is one of the long-term plans that is on my plate, 
to decide how do we, long term, you know, capture those 
mementos for future generations so that we don't lose that.
    Mr. Young. So that process has not been fully developed as 
yet, is that correct?
    Ms. Condon. Right. It is still a pilot that we are still 
collecting the mementos and cataloging them. But we have not 
finalized, you know, what we are going to do for the future on 
that.
    Mr. Young. Do you have a time frame by which you intend to 
implement?
    Ms. Condon. Sir, I don't have the exact date, but, you 
know, it is something that I will take as a do-out. And I will 
work with the Center of Military History on, you know, what is 
the best time to transition for that.
    Mr. Young. Okay. Well, I will and I know many of my 
colleagues will continue to keep their finger on the pulse of 
all these different lines of inquiry. And I expect you will 
keep us informed every step of the way.
    Ms. Condon. Sir, we will.
    Mr. Young. All right. Thank you much.
    Mr. Wittman. Thank you, Mr. Young. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I understand we have changed the leadership at the very 
top. But, yet, there were whole echelons of subordinate 
leadership that were complicit in these activities that are 
still there. I mean, I just find that stunning.
    I mean, this is an organization that is rotten to its core. 
This is an organization that has conducted itself really--I 
think the best way to describe it is a culture of incompetence, 
if not a culture of corruption. And if this was a military 
organization and such an investigation would have occurred, not 
only would the Uniform Code of Justice have been used fairly 
dramatically, but at all of those echelons of subordinate 
leadership, they would have been relieved. They would have been 
gone.
    You know, I tell you, this organization--and I am a combat 
veteran, and I can tell you--does not reflect the values of our 
military. They do not honor our military and their sacrifices. 
And they need to go.
    And so I am asking you, what actions are being taken to 
change leadership at every level, to get rid of these people 
who have done these things, and start over again?
    Ms. Condon. Sir, if I may, in fairness to the workforce, 
they weren't trained to do the job. And I will let Mr. Hallinan 
follow up on that since he is in charge of--they were not 
trained.
    I will give an example of one of the supervisors who we 
recently sent to the VA training center. It was the first time 
he was sent to training in 20-some years of employment at the 
cemetery. There weren't standards, there weren't procedures, 
and they weren't held accountable.
    The thing that Mr. Hallinan and I are doing is giving each 
and every one of the workforce the tools to do the job 
correctly----
    Mr. Coffman. So you are saying these things were okay that 
occurred, basically. You are defending the actions that were 
taken by this workforce, are you not?
    Ms. Condon. Sir, I am not defending the mistakes that were 
made in the past.
    Mr. Coffman. But it is really okay what they did, because 
we can just kind of explain it away. Is that what you are 
saying?
    Ms. Condon. No, sir, that is not what I am saying.
    Mr. Coffman. That is what I am hearing.
    Mr. Hallinan. Mr. Congressman, may I take part of that 
question, please?
    Mr. Coffman. Please.
    Mr. Hallinan. It is not okay, and it is not acceptable. If 
there was any criminal wrongdoing, if the IG investigation 
comes back and provides recommendations about incompetence or 
misconduct----
    Mr. Coffman. Oh, we know that is there. Please go ahead.
    Mr. Hallinan [continuing]. We will address it. A blind eye 
will not be turned. People will be held accountable.
    The employees, as Ms. Condon was speaking to, were not 
provided leadership. Those of you who are combat veterans and 
my fellow Marine in the back--no leadership, no guidance, no 
direction, absolutely no training. They are one-person deep out 
there. And it is a very difficult and challenging situation.
    But I can assure you with 100 percent confidence, under our 
watch, if they do not respect and honor the service of our 
veterans, if it is misconduct or if it is a performance issue, 
it will be addressed.
    Mr. Coffman. Well, you referenced the Marine Corps. And I 
can tell you that the leadership that I am seeing here at 
Arlington couldn't lead starving troops to a chow hall. But 
that is fundamentally not the issue. You referenced the Marine 
Corps, and every Marine has basic values, understands the basic 
mission. And what you are, in effect, telling me is that these 
people were so incompetent or so poorly led that they didn't 
even understand what they were supposed to be doing. Is that 
correct?
    Mr. Hallinan. What I am saying, Congressman, is we need to 
change that culture. There has been identified a definitive 
problem. No doubt. We all know this. We need to change that 
culture and instill a culture of professionalism and a culture 
of honoring our veterans and caring. And we do that 
individually and personally by setting that standard and 
providing that leadership. And that is what is happening today.
    Mr. Coffman. You don't honor veterans and their families by 
leaving people in place that have disgraced their memory. You 
get rid of them, and you bring in people that have the 
integrity, without supervision, you know, that certainly can 
independently perform their job and understand--understand--the 
sacred nature of that ground. Because, obviously, the culture 
of Arlington today does not understand that. And that is a 
tragedy.
    And I just don't see--maybe we need another change in 
leadership at the top, because I don't think you all get it. I 
just don't think you get it. I don't think you get how these 
families are affected. I just don't think you get it. That is 
what I am hearing today, is you don't get it; that you really, 
fundamentally, at the end of the day, don't care; that you are 
bureaucrats in place.
    And we need something--we need to honor these veterans. We 
need to honor their families. We need to honor the sacred 
ground of Arlington. And I can tell you, we need leadership 
that respects that. Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Mr. Coffman. Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman. I thank both of you 
for coming here again today.
    Many of my colleagues may not know--I know the chairman 
does--I had a visit out there, as I said, earlier in mid-March. 
I understand my colleague's frustration, but I also know that 
there is a reason why these people are here, because of 
precisely what you are very upset about and what we are all 
frustrated about.
    And just, kind of, touch on that. I think we touched on 
that when I met with you out there. But has there been a 
dramatic turnover in the workforce since you guys took your 
positions?
    Ms. Condon. Sir, since we have taken over, we have had 15 
individuals who have retired or transferred to other positions.
    But we have also, as part of a manpower survey, we were 
told that there were 57 more people that we really needed to 
run the cemetery effectively and efficiently. We have managed 
to hire 22 more individuals, we have 24 active recruitments on 
the street, to bring in the new team to run Arlington.
    Mr. Runyan. And, of your knowledge, since you were either 
on an interim basis or permanent, has any incident like this 
happened under your watch?
    Mr. Hallinan. What type of incident, Congressman? 
Performance issues?
    Mr. Runyan. Issues that we would have with burials or loved 
ones being there and noticing things that have been created 
under your watch.
    Mr. Hallinan. Yes, we have had two incidents of gravesites 
being misassigned.
    Mr. Runyan. And that is part of--I know we spoke out 
there--part of your process of setting up these parameters and 
basically trying to go to a digital system to where it is more 
at your fingertips, there is less paper involved. How is that 
process going, and how quickly are we moving there?
    Because I don't know if many of the other Members know that 
most of the records out there are basically in a card catalog 
system, and it is basically ancient.
    I know you guys are addressing that, but just fill us in on 
how that procedure is moving forward.
    Ms. Condon. Sir, that procedure is moving forward. What we 
are doing is--that is part of the accountability that we are 
doing by the public law. What we have to do is we are going to 
re-scan all of our records. We are doing that, tying that to a 
digital flyover of each and every gravesite so that we truly 
will have a digital process for our recordkeeping at Arlington.
    And if I could go back on the question about the mistakes 
that have happened--and Mr. Hallinan didn't touch on the burial 
mistake. The new standards and procedures that we have in 
place--the workforce, when they made that mistake, immediately 
notified, you know, the chain of command that there was a 
switch in the two gravesites. So that the procedures that we 
are putting in place are working, because the workforce, when 
they made a mistake, came forward to the leadership.
    I don't know if you want to expound on that, Mr. Hallinan.
    Mr. Hallinan. In the misassignment of the gravesites, what 
we found in the past was that it would not be reported to the 
leadership. The leadership was not trusted. The leadership was 
divided. And it is all part of the IG report, the inspector 
general's report.
    In this instance, they did come to me and said they made a 
mistake. And even though these procedures we are putting in 
place are new and they have been trained to those procedures, 
when they made the mistake they came forward and let myself 
personally know. I let Ms. Condon know. And we have corrected 
the mistakes.
    Mr. Runyan. Thank you very much. And, you know, with what 
has happened out there, I think you guys are living under a 
microscope. It is a very ambitious undertaking, and I wish you 
all the best. We have to do this, because it is truly for our 
heroes. Thank you very much for your testimony. I yield back, 
Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Runyan. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And, first of all, I 
want to thank you for holding this hearing and paying attention 
to this all-important issue of the lapses that took place at 
Arlington and how we get this right.
    I know that the folks at the table are new to their 
positions, and they are charged with trying to make things 
right. And I want to thank you for the work that you are doing.
    I, like many of my colleagues and the American people, were 
appalled at the lapses that had taken place and how remains 
were not properly handled and the things that--wrong gravesite 
burials and remains in the wrong place. It is totally 
unacceptable.
    We have an obligation not only to, obviously, support our 
warfighters and, certainly, support our veterans, particularly 
those disabled, but the ultimate sign of respect, of course, is 
how we treat our soldiers at the end of their lives and how 
their remains are properly handled afterwards. So I am grateful 
that we are paying attention to this issue of how we make 
things right at Arlington.
    I will have several questions for the record, Mr. Chairman. 
Just one question for purposes of this hearing right now.
    First of all, I understand that it is the Army that 
basically is responsible for Arlington National Cemetery. 
Around the country, the veterans cemeteries, from what I 
understand, are mainly handled by the VA.
    Could you give me the pros and cons of the Army continuing 
to have jurisdiction and oversight and, basically, operational 
control over Arlington National Cemetery versus the VA? What 
are the pros and cons for either method, if we were to transfer 
jurisdiction to the VA?
    Mr. Hallinan. Being a former VA employee until recently, 
Congressman, and responsible for those 131 national cemeteries 
that are highly maintained with a dedicated workforce, I do 
want to say that Arlington National Cemetery is currently being 
operated and maintained to those same consistent standards.
    Arlington National Cemetery--and this touches upon 
something the chairman spoke to early in one of his questions--
is unique. Can we stand down? Is it like an aircraft carrier; 
should it be taken in and dry-docked and overhauled? 
Unfortunately not an option. We have families, 27 interments, 
burials on a constant basis.
    Arlington is unique. It is one of the busiest national 
cemeteries in the United States, if not the entire world. 
Arlington National Cemetery conducts over 3,000 ceremonies; has 
dignitaries, heads of state from around the world that come pay 
their respect to America's fallen service men and women. 
Arlington also provides graveside service, which VA cemeteries 
do not.
    And, additionally, Washington, DC, and Arlington National 
Cemetery is one of the most visited tourist spots in the 
country. We average over 4 million visitors who come also to 
learn of the history and pay their respects. There is no other 
VA cemetery like that. These complexities are challenging, and 
they are very real.
    One thing I would like to add for the record is that the 
families that Ms. Condon and I have dealt with--because we do 
get feedback on a daily basis from the families that come in 
and out--encourage us. So, through difficult times for them, 
they are encouraging us to correct and fix the problems.
    But the families we have met and spoke with, and 
specifically the Gold Star parents that we have met with, their 
feelings on that issue, Mr. Congressman--and I was on the 
defensive as a VA employee at that point--they felt quite 
passionately and adamantly that Arlington should stay under the 
Army and not become a VA national cemetery.
    And lastly--and Ms. Condon can follow up--I believe, based 
on being on the ground and dealing with these issues, that the 
Army has the resources and has the commitment to fix the past 
mistakes and to operate Arlington National Cemetery effectively 
into the future.
    Ms. Condon. And, sir, if I can add, the mistakes that 
happened and Arlington being broken, the Army needs to fix it. 
When things are broken in the Army, the Army needs to fix the 
issues that happened in the past.
    And then, you know, the decision--once it is fixed, then we 
can make the decision on if, you know, Arlington should remain 
under DOD [Department of Defense], which--I agree with Mr. 
Hallinan, because of the uniqueness of all of the things that 
we do at Arlington, that it should be a DOD-run cemetery.
    Mr. Langevin. Very good. Well, I thank you for your 
answers. This committee takes this issue of getting things 
right at Arlington very seriously, as does every Member of 
Congress. And we are going to continue to provide aggressive 
oversight.
    Mr. Chairman, I want to thank you again for holding this 
hearing, and my colleagues who participated in this hearing, 
and the folks at the table.
    And, as I said, I know you are new in your positions and 
you are charged with getting things right at Arlington, and we 
look forward to continue working with you. As I said, there is 
no greater sign of respect than how we treat our soldiers at 
the end of their life and their final interment, and we want to 
make sure that we are providing the ultimate respect. Thank 
you. I yield back.
    Mr. Wittman. Thank you, Mr. Langevin. We appreciate you 
joining us here at the hearing today.
    I want to do a couple of follow-up questions. First, you 
talked about discrepancies. Have you identified exactly how 
many discrepancies exist? And is there a plan of action to 
address those?
    Ms. Condon. Sir, when we do our accountability effort that 
we are mandated by law, when we check all of the records with 
the actual gravesite, that should identify where we may have 
potential discrepancies in the cemetery. When we do that, then 
we will address each and every one of those discrepancies. And, 
as we stated before, in the first course of action, if we find 
a discrepancy, is that we will contact the families that are 
involved.
    Mr. Wittman. When do you expect to complete that evaluation 
of the entire cemetery to discover the full content and 
magnitude of the discrepancies that exist?
    Ms. Condon. Sir, as you know, we have the public law that 
says I have to do that by December 22nd of this year.
    Mr. Wittman. Okay.
    Ms. Condon. And we are well on our way of putting forward 
the plan and starting the effort to do just that.
    Mr. Wittman. So you expect to comply with that by December 
22nd?
    Ms. Condon. Sir, I will--we will do our best to comply by 
that date.
    Mr. Wittman. Okay. I would like for you to say that you 
will accomplish it.
    Ms. Condon. Yes.
    Mr. Wittman. Doing your best is great, but accomplishing it 
is what we all want.
    Ms. Condon. Got it, sir.
    Mr. Wittman. Thank you. Thank you.
    I wanted to ask, too, I know that there is obviously a wide 
scope of problems, discrepancies, issues. Have you all 
contemplated putting together a panel of experts from other 
areas, such as the VA, to do an independent look at the things 
that you face--the recordkeeping system, the identification of 
remains, the operational issues there? Have you thought about 
doing that, rather than continuing to do it internally?
    Because it seems like, internally, we continue on a weekly 
basis to learn more and more about the things that are going on 
there. So I am wondering if it may not be time to have an 
independent panel come in and take a look.
    Ms. Condon. Sir, as you know, we are in the process of 
nominating for the Arlington Commission. I didn't realize how, 
you know, putting a FACA commission in, all the requirements to 
get your members nominated and actually on board.
    That was one of the reasons for putting that independent 
commission together. Secretary McHugh has directed that. And 
that is what we are going to be using the independent 
commission for, is that outside look of the issues at 
Arlington. And they could recommend other views that they feel 
that need to be, to make sure that Mr. Hallinan and I are doing 
all that we need to do.
    Mr. Wittman. So the independent commission--I want to make 
sure I am clear--the independent commission is going to be 
looking at existing operations. But will they also be looking 
at discrepancies in the past and what should be done to fix 
those discrepancies? And then will they also look at the 
problem operationally with conduct of personnel there at 
Arlington?
    Ms. Condon. Sir, you know, since the commission hasn't 
started yet--but those are probably very good agenda items that 
we could put on the commission to look at or to recommend, 
issues that we should have, perhaps, other commissions look at.
    Mr. Wittman. Is there a date certain for this commission 
starting its work?
    Ms. Condon. Sir, we are putting together the nomination 
packages and forwarding them through the process. And I don't 
know when all of those will be approved and vetted, but we are 
trying our best to get it done within the next several months.
    Mr. Wittman. Okay. All right. We would like a little more 
specificity on that. I think the urgency, obviously, is before 
us. I think the public wants to see things done and, obviously, 
people there to provide that guidance, that independent 
commission that the Secretary puts in place. I think timeliness 
is of the essence. So it would certainly be, I think, very, 
very important.
    I want to go back again to Mr. Schneider. I think we cannot 
understate the efforts that need to be undertaken by the IG in 
looking at all of the past performance there of employees.
    And, again, as more and more of this comes to light, just 
as Mr. Coffman said, it is beyond me that somehow there wasn't 
significant wrongdoing. And I don't want to prejudge people, 
but I can tell you, externally, looking at this, it sure 
appears to me that there was more than just oversight or 
mistakes being made there, that this type of action and 
behavior, if it is not criminal sure seems that way.
    So I want to get a little more definition about where the 
IG is in that investigation, when they hope to come to some 
kind of conclusion, when we can hope to hear something.
    I hope this isn't an effort where this is a marathon where 
the IG is just trying to continue to push this into future and 
hopefully the issue will go away. Because I can assure you, 
from this committee's standpoint, the issue is not going away.
    Mr. Schneider. Well, I think two things. Number one, I 
think we get it that it is not going away and this committee is 
not going to let it go away.
    Secondly, we owe you an answer on where the IG is going and 
when the IG expects to be completed with its work. My belief is 
the IG will take it wherever it goes, and if criminal activity 
is identified, it will be turned over to the criminal 
investigators for them to work through their process.
    And, again, if it is military people, it would be under the 
Uniform Code of Military Justice. If it is civilians, it would 
be Title 18 and handled through the Justice Department and U.S. 
Attorney's office.
    Mr. Wittman. Okay. Well, we can hope to get something 
definitive out of the IG?
    Mr. Schneider. I will go back tonight, and----
    Mr. Wittman. Okay.
    Mr. Schneider [continuing]. This will be number one on my 
agenda.
    Mr. Wittman. Very good. Well, we would like to hear from 
them. And we will also be submitting some questions for the 
record----
    Mr. Schneider. Yes, sir.
    Mr. Wittman [continuing]. To the IG and asking that they 
respond within a short time period. We will put it like that.
    I wanted to follow a little bit further up on Mr. 
Langevin's question, because I think it is very, very pertinent 
to what we are dealing with here. There has been a lot of 
suggestion--we have had a lot of calls from veterans who said, 
hey, you know, the cemetery there may be better run by the VA, 
for a variety of reasons. And I respect Mr. Hallinan's 
viewpoint on that, having worked on the VA side and come over 
to the Arlington side.
    But the question always comes up, the Army's mission is 
winning wars, it is not really running cemeteries. And with the 
problems that have occurred there, the question then becomes, 
are we better off going to the VA, especially with the 
magnitude of the cemeteries that they manage, to look at how do 
we re-establish faith, how do we re-establish trust there at 
Arlington.
    And I wouldn't expect anything other than to say, hey, the 
Army can do the job. But I also want, too--I know that 
professionally both of you have seen operations both in the VA 
and the Army. And I know that there, obviously, are some ideas 
that you are going to have that are going to say, keep it in 
the Army.
    But I do want to get your thoughts about, what strengths do 
you see the VA bringing to the table in the way that they run 
their facilities? And I want to put that in context to 
understand what might be still lacking there at Arlington.
    Ms. Condon. Sir, if I could start on that one, first of 
all, right now I think if we were to transition today to the 
VA, I think the turmoil that that would cause at Arlington 
would probably impact our veterans and their families to a 
great extent.
    I think what we really need to do is, as I stated before, 
is to put together those standards and procedures and fix the 
issues, and then make the determination on where Arlington 
should go.
    Mr. Wittman. Okay. Very good.
    Mr. Hallinan, I know you had elaborated on that, but I 
don't know if you had any additional comments.
    Mr. Hallinan. I agree, Mr. Chairman. I think the Army 
should fix the problem. I think we should restore some faith 
and trust of the families. And then that decision can be made 
by this body or another committee or body if that is the 
correct course of action.
    But I think, for the here and the now, we need to correct 
and we need to move Arlington forward.
    Mr. Wittman. Very good. Any other questions?
    Yes, Mr. Coffman.
    Mr. Coffman. Ms. Condon, can you clarify when you said that 
changing from the Army to the Veterans Administration might 
cause turmoil for the veterans and their families?
    Ms. Condon. Sir, because one of the things that Mr. 
Hallinan and I have experienced as we are putting and 
implementing the new changes in standards and procedures and 
getting the workforce to adapt to the new accountability that 
we are doing, I think if we were to take the workforce that we 
have now and to put a whole new leadership team in there, it 
would create a turmoil and chaos that would impact our veterans 
and their families and the services that we provide at 
Arlington in a day.
    Mr. Coffman. So you actually believe that there is a level 
of incompetence beyond what has been done? You got to be 
kidding. You can't be serious about that. I mean, the fact is, 
the United States Army--and God bless it as an organization; I 
was once a soldier--but it has demonstrated such a level of 
incompetence in the management of Arlington that it needs to 
step aside and let the Veterans Administration come in there 
and lead and serve the veterans and their families and end this 
turmoil. And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Coffman. I want to follow up on 
one additional question also. You talk about making sure that 
you are identifying these issues going forward, making sure you 
are taking care of them, in context of doing 27-plus burials a 
day.
    My question is this. It seems like, in that context, you 
would want to have a team that does nothing but implement these 
improvements, taking up these discrepancies. And it is great to 
say we are dealing with 27 burials, but if you are really 
serious about getting this done, are there plans on putting in 
place an implementation team to say, ``Your job is to do 
nothing but fix the past wrongs, make sure that there is 100 
percent certainty in the identification and location of 
remains, to get the paper system into a digital form.'' And I 
know we met several members of the Army there that are working 
on that.
    But my question is, will we have a bifurcated process--day-
to-day operations, implementation--to right past wrongs?
    Ms. Condon. Sir, as a matter of fact, we are putting 
together a task force, headed by a colonel who was a signal 
officer, to address solely the accountability aspect of the 
cemetery.
    Mr. Wittman. Okay. Very good.
    Mr. Schneider. And, sir, one issue I would like to add on--
it is something we were talking about before--is sharing of 
information and skill with the Department of Veterans Affairs. 
Maybe we should have some Army employees go off and work at VA 
for a while, have some VA employees come.
    And Ms. Condon and I have talked about the need for 
military officers, Army officers, to be assigned at Arlington. 
And I think it gets to something Mr. Coffman was talking about, 
in terms of, no kidding, we need some people. And, gosh, if we 
could get, you know, men and women, officers who have served in 
Iraq and Afghanistan to come in and help us make sure we do the 
right thing, I think that would be something that we would want 
to do.
    So I am going to work with Ms. Condon from the personnel 
side and see that we can't make that happen.
    Ms. Condon. And, sir, if I may add to that, when we did the 
new manpower structure, we did add military spaces to our 
structure. And it has truly made all of the difference in how 
Arlington has operated when you really have, as Colonel Koch 
saw, when you have a lieutenant colonel who was actually 
calling you in his very military fashion and telling you that 
you have an issue. So that has truly been one of the 
improvements that I think is very important at Arlington.
    Mr. Wittman. Very good. Thank you, Ms. Condon. Mr. Runyan, 
do you have any other questions?
    Mr. Runyan. No.
    Mr. Wittman. Okay. Well, I want to conclude by thanking the 
witnesses for coming today. We are going to place great 
attention on the efforts there at Arlington.
    I hope that you will pass on to the Secretary and the Army 
inspector general that we missed having them here today, and we 
are going to continue to place a focus on this issue, again, to 
make sure that there is no question left at Arlington that any 
family has with the location or identification of remains 
there. I think that is critical.
    And I want to close with a quote from Colonel Koch in his 
testimony. I think it is very compelling, and I think it is the 
best way to close and to denote the challenges ahead.
    Colonel Koch said this, he said, ``I think we have more 
than one unknown soldier at Arlington now. I think that we want 
to make sure that we go back to only having one Tomb of the 
Unknown there at Arlington.''
    Ladies and gentlemen, thank you all so much for joining us 
today.
    I want to remind the committee members that you have 14 
days by which to submit additional questions that we will 
submit to the Army for their answers.
    And we look forward to having some quick responses to those 
questions as we submit them to you.
    Thank you. And, with that, the subcommittee is adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 14, 2011

=======================================================================



====================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 14, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 66966.001
    
    [GRAPHIC] [TIFF OMITTED] 66966.002
    
    [GRAPHIC] [TIFF OMITTED] 66966.003
    
    [GRAPHIC] [TIFF OMITTED] 66966.004
    
    [GRAPHIC] [TIFF OMITTED] 66966.005
    
    [GRAPHIC] [TIFF OMITTED] 66966.006
    
    [GRAPHIC] [TIFF OMITTED] 66966.007
    
    [GRAPHIC] [TIFF OMITTED] 66966.008
    
    [GRAPHIC] [TIFF OMITTED] 66966.009
    
    [GRAPHIC] [TIFF OMITTED] 66966.010
    
    [GRAPHIC] [TIFF OMITTED] 66966.011
    
    [GRAPHIC] [TIFF OMITTED] 66966.012
    



=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 14, 2011

=======================================================================

                  QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. When will the Arlington Commission be up and running? 
What will their agenda specifically be?
    Ms. Condon.
    <bullet>  The Army National Cemeteries Advisory Commission Charter 
was filed on October 11, 2010 and will consist of nine full time 
members. The Commission will maintain balanced membership that includes 
a cross-section of qualified experts on, as well as others having a 
strong vested interest in, the dignified transfer and burial of remains 
eligible for interment or inurnment in the Army National Cemeteries, 
veteran's affairs, service member's entitlements and surviving family 
matters.
    <bullet>  Per Department of Defense policy (DoDI 5105.04), 
Commission member nominations will be handled as confidential until 
approved by the appointing authority. Those who are not currently full-
time or permanent part-time Federal officers or employees shall be 
appointed as experts and consultants under the authority of 5 U.S.C. 
Sec. 3109 and shall serve as special government employees.
    <bullet>  The initial agenda of the Commission will be to establish 
business protocols and practices; receive ethics training; and become 
acquainted with the overall operation and conditions at Arlington 
National Cemetery and the Soldiers' and Airmen's' Home Cemetery. Topics 
to be addressed as general business will be directed by the Secretary 
of the Army and Executive Director. Initial topic agenda items include:
        o  Strategic planning to extend the life of active burials at 
        Arlington National Cemetery which includes the Millennium 
        Project and Navy Annex
        o  Long term implications of Section 60 Mementos study
        o  Repair of the Tomb of the Unknown Soldier

    Mr. Wittman. What are the details of the inspector general 
investigation? When will it be complete?
    Mr. Schneider. The current, ongoing Department of the Army 
Inspector General (IG) investigation relating to ANC is under review by 
the Department of Defense Inspector General. This investigation is in 
regards to an incident that occurred in 2010 where a Service member's 
remains were disinterred then reinterred. In addition, the Department 
of the Army Inspector General provided additional information to 
Criminal Investigation Command (CID) to consider as a part of their 
currently on-going criminal investigation.
    Because this is an ongoing investigation, it is not possible to 
establish a definitive completion date. I will keep the committee 
appraised of the investigation results as the information is made 
available.

                                  <all>

</pre></body></html>
